                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 1-08040030
                                                                               11           Page 1 of 1



         This investigation was initiated pursuant to a proactive review' of awards where no project
         reports had been submitted and funds had been drawn-down after the expiration date. A review
         of the general ledger for an institution's2 NSF award3revealed that a significant amount of funds4
         were drawn-down beyond what was reflected on the general ledger.

         We received and reviewed financial information from the grantee institution to determine when
         the funds missing from the general ledger had disappeared. We contacted the grantee institution
         and discovered that the general ledger we had reviewed was incomplete. The grantee institution       --
         probided additional information and itwas determined that the funds originally missing from the
         general ledger had in fact been expended on the grant project.

         Accordingly, this case is closed.
              I




NSF OIG Fonn 2 (1 1/02)
